   August 23, 2004




Logistics
The Military Departments’
Implementation of Performance-
Based Logistics in Support of
Weapon Systems
(D-2004-110)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
ACAT                  Acquisition Category
ADUSD(LP&P)           Assistant Deputy Under Secretary of Defense (Logistics Plans and
                         Programs)
BCA                   Business Case Analysis
DAU                   Defense Acquisition University
NAVAIR                Naval Air Systems Command
NAVSEA                Naval Sea Systems Command
PBL                   Performance-Based Logistics
SPAWAR                Space and Naval Warfare Command
USD(AT&L)             Under Secretary of Defense for Acquisition, Technology, and
                         Logistics
                            INSPECTOR GENERAL
                          DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704




                                                                          August 23,2004
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                  TECHNOLOGY, AND LOGISTICS
                DEPUTY UNDER SECRETARY OF DEFENSE (LOGISTICS
                  AND MATERIAL READINESS)
                ASSISTANT SECRETARY OF THE AIR FORCE
                  (FINANCIAL, MANAGEMENT AND COMPTROLLER)
                NAVAL INSPECTOR GENERAL
                AUDITOR GENERAL, DEPARTMENT OF THE ARMY
SUBJECT: Report on the Military Departments' Implementation of Performance-Based
         Logistics in Support of Weapon Systems (Report No. D-2004-110)

       We are providing this report for review and comment. We considered comments
from the Acting Deputy Under Secretary of Defense (Logistics and Materiel Readiness),
the Army, the Navy, and the Air Force when preparing the final report.
       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Acting Deputy Under Secretary of Defense (Logistics and Materiel Readiness) and
the Army comments were responsive. We request that the Navy provide additional
comments on Recommendation 2.b. and the Air Force provide additional comments on
Recommendation 1.d. We further request that the comments be provided by
October 25,2004.
       If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Audls@dodi~.osd.mi1. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the 1 Signed 1
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).
       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Terrance P. Wing at (215) 737-3883 (DSN 444-3883) or Ms. Nancee K. Needham
at (703) 604-9633 (DSN 664-9633). See Appendix D for the report distribution. The
team members are listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:



                                           Shelton R. y6ung
                                      Assistant Inspector General
                                  for Readiness and Logistics Support
          Office of the Inspector General of the Department of Defense
Report No. D-2004-110                                                    August 23, 2004
   (Project No. D2004LD-0041)

                The Military Departments’ Implementation of
                  Performance-Based Logistics in Support
                             of Weapon Systems

                                Executive Summary

Who Should Read This Report and Why? DoD civil service, uniformed officers, and
Government contractors who are responsible for implementing performance-based
logistics (PBL) should read this report. This report discusses the status of the
implementation of PBL in the Military Departments.

Background. PBL is the DoD preferred approach for implementing product support.
PBL is a strategy for weapon system product support that employs the purchase of
support as an integrated performance package designed to bring higher levels of system
readiness. PBL delineates outcome performance goals of weapon systems; ensures that
responsibilities are assigned; and provides incentives for attaining those goals for the
overall life-cycle management of system reliability, supportability, and total ownership
cost.

DoD Directive 5000.1, “The Defense Acquisition System,” May 12, 2003, provides
policies that apply to all acquisition programs. According to the Directive, program
managers are required to develop and implement PBL strategies that optimize total
system availability while minimizing cost and logistics footprint. The Directive also
requires that program managers become the single point of accountability for
accomplishing program objectives for total life-cycle systems management, including
sustainment. The Fiscal Year 2003-07 Defense Planning Guidance requires that each
Military Department submit a plan that identifies its implementation schedule for
applying PBL to all new weapon systems and all Acquisition Category I and II fielded
systems.

Results. The FY 2003-07 Defense Planning Guidance requires each of the Military
Departments to be aggressive in PBL efforts and to submit a plan outlining their
strategies. Overall, the Military Departments were implementing PBL strategies for
weapon systems, sub-systems, and components; however, with the exception of Navy
headquarters, their efforts were inconsistent, processes were inadequate and
uncoordinated, and results were undeterminable. As a result, DoD and the Military
Departments cannot ensure the effective and aggressive implementation of PBL. The
implementation of PBL may not be achieving the goals of improving readiness for major
weapon systems or realizing a reduction in logistics support costs. The Assistant Deputy
Under Secretary of Defense (Logistics Plans and Programs), in coordination with the
Military Departments, should finalize PBL implementation and business case analysis
guidance, establish PBL training requirements, and standardize data collection efforts to
track the status of PBL efforts. (See the Finding section of the report for the detailed
recommendations).
Management Comments and Audit Response. The Acting Deputy Under Secretary of
Defense (Logistics and Materiel Readiness) concurred with the finding and
recommendations. The Acting Deputy Under Secretary has initiated corrective actions to
issue an update to current policies to provide detailed guidance on implementing PBL
and preparing business case analyses. In addition, the Acting Deputy Under Secretary is
working with the Defense Acquisition University to improve PBL and business case
analysis training. Also, the Acting Deputy Under Secretary stated that they are
standardizing data fields for Military Departments’ status reporting and will establish a
quarterly reporting requirement through the Total Life Cycle Management Steering
Group. The Deputy Assistant Secretary of the Army (Integrated Logistics Support),
responding for the Assistant Secretary of the Army (Acquisition, Logistics, and
Technology), generally concurred with the recommendations. However, he partially
concurred with issuing policies and procedures for implementation of PBL that
incorporates policies and procedures developed by the Deputy Under Secretary of
Defense (Logistics and Materiel Readiness). The Deputy Assistant Secretary of the
Army stated that PBL policy had been added to existing Army policy and a newly formed
PBL integrated product team for the Army is developing additional policies and
procedures for business case analysis preparation, performance-based agreements,
product support integration, and contracting. The Deputy Assistant Secretary of the
Army partially concurred with establishing training requirements. However, he stated
that the Army would look at training requirements and course development to determine
if additional Army training needed to be developed. The Deputy Assistant Secretary of
the Navy (Logistics), responding for the Assistant Secretary of the Navy (Research,
Development, and Acquisition), generally concurred with the recommendations but
nonconcurred with the recommendation to determine and establish training requirements.
The Deputy Assistant Secretary of the Navy stated that more value would be gained by
relying on standardized Defense Acquisition University training. The Air Force
Assistant Deputy Chief of Staff (Installations and Logistics) generally concurred with the
recommendations but only partially concurred with the establishment of quarterly status
reporting requirements.

Management comments from Acting Deputy Under Secretary of Defense (Logistics and
Materiel Readiness) and the Army were considered responsive. The Navy and the Air
Force comments were partially responsive but require more detail. Specifically, we
request that the Navy reconsider its position on determining and establishing training
requirements for PBL implementation and the Air Force reconsider its position on a
status reporting requirement. We further request that the Navy and the Air Force provide
comments to the final report by October 25, 2004. See the Finding section of the report
for a discussion of the management comments and the Management Comments section of
the report for the complete comments.




                                            ii
Table of Contents

Executive Summary                                                              i

Background                                                                    1

Objectives                                                                    2

Finding
     Implementation of Performance-Based Logistics                             3

Appendixes
     A.   Scope and Methodology                                               16
     B.   Prior Coverage                                                      17
     C.   Additional Barriers to Performance-Based Logistics Implementation   19
     D.   Report Distribution                                                 22

Management Comments
     Deputy Under Secretary of Defense (Logistics and Materiel Readiness)     25
     Department of the Army                                                   27
     Department of the Navy                                                   30
     Department of the Air Force                                              34
Background
           Performance-based logistics (PBL) is the DoD preferred approach for
           implementing product support. PBL is a strategy for weapon system product
           support that employs the purchase of support as an integrated performance
           package designed to bring increased levels of system readiness. PBL describes
           performance goals for weapon system readiness and encourages the creation of
           incentives for attaining those goals through clear lines of authority and
           responsibility. PBL delineates outcome performance goals of weapon systems;
           ensures that responsibilities are assigned; and provides incentives for attaining
           those goals for the overall life-cycle management of system reliability,
           supportability, and total ownership cost. In September 2001, the Quadrennial
           Defense Review1 advocated implementation of PBL and modern business systems
           with appropriate metrics to compress the supply chain, eliminate non-value-added
           steps, and improve readiness for major weapon systems and commodities. The
           Office of the Assistant Deputy Under Secretary of Defense (Logistics Plans and
           Programs)(ADUSD[LP&P]) provides oversight for the implementation of PBL
           within DoD.

           DoD Guidance. DoD Directive 5000.1, “The Defense Acquisition System,”
           May 12, 2003, provides policies that apply to all acquisition programs.
           According to the Directive, program managers are required to develop and
           implement PBL strategies that optimize total system availability while
           minimizing cost and logistics footprint. The Directive also requires that the
           program managers become the single point of accountability for accomplishing
           program objectives for total life-cycle systems management, including
           sustainment.

           The FY 2003-07 Defense Planning Guidance requires that each Military
           Department submit a plan that identifies its implementation schedule for applying
           PBL to all new weapon systems and all Acquisition Category2 (ACAT) I and II
           fielded systems. Further, the FY 2003-07 Defense Planning Guidance requires
           that the implementation plans be pursued aggressively.
           Spectrum of PBL Strategies. PBL strategies vary depending on the age of the
           system, existing support infrastructure, organic and commercial capabilities, and
           legislative and regulatory constraints. PBL strategies include total system support




1
    The Quadrennial Defense Review report serves as the overall strategic planning document of the
    Department of Defense, as required by Public Law 103-62.
2
     The acquisition category determines an acquisition program’s level of review, decision authority, and
    applicable procedures. ACAT I programs are acquisition programs with an estimated total expenditure
    for research, development, test, and evaluation of more than $365 million or for procurement of more
    than $2.19 billion. ACAT II programs have an estimated total expenditure for research, development,
    test, and evaluation of less than $365 million but more than $140 million or for procurement of less than
    $2.19 billion but more than $660 million. ACAT III programs are defined as those acquisition programs
    that do not meet the criteria for an ACAT I or ACAT II program.



                                                       1
          responsibility, industry partnering, service level agreements, performance-based
          agile logistics support, prime vendor support, contractor delivery system, and
          performance plans.3

          Figure 1 shows the various approaches to PBL.


                                  Figure 1. Spectrum of PBL Strategies

                                  More Organic               More Commercial
                                   Organic Support
                ORGANIC                                                            CONTRACTOR
                                                           Contractor Support

                Traditional                                                            Contractor
                                                Public / Private
                 Organic                                                              Responsible
                 Support                          Partnering                          For Majority
               Environment                       Opportunities                         Of Support



Objectives
          Our overall audit objective was to evaluate the Military Departments’ reported
          progress in implementing PBL in accordance with their published schedules.
          Specifically, we assessed the adequacy and availability of guidance and training
          related to PBL. This audit is a continuation of work initiated under Inspector
          General of the Department of Defense Project No. D2003LD-0166, “Research on
          Military Department Implementation of Performance-Based Logistics in Support
          of Weapon Systems,” December 1, 2003. See Appendix A for a discussion of the
          scope and methodology. See Appendix B for prior coverage related to the
          objectives.




3
    Derived from “Transforming Logistics Through Performance-Based Logistics,” September 23, 2003,
    ADUSD (Logistics Plans and Programs).



                                                   2
           Implementation of Performance-Based
           Logistics
           DoD guidance requires each of the Military Departments to be aggressive
           in PBL efforts and to submit a plan outlining their strategies. Overall, the
           Military Departments were implementing PBL strategies for weapon
           systems, sub-systems, and components; however, with the exception of
           Navy headquarters, their efforts were inconsistent, processes were
           inadequate and uncoordinated, and results were undeterminable. That
           occurred because DoD had not issued adequate PBL implementation
           guidance or established sufficient oversight. In addition, the Military
           Departments had not formalized effective PBL guidelines or established
           training requirements for executing PBL initiatives. Further, the Military
           Departments lack a standardized data collection system for tracking and
           reporting PBL implementation status. As a result, DoD and the Military
           Departments cannot ensure the effective and aggressive implementation of
           PBL. The implementation of PBL may not be achieving the goals of
           improving readiness for major weapon systems or realizing a reduction in
           logistics support costs.


PBL Implementation Schedules and Status
    Overall, the Military Departments were implementing PBL strategies for weapon
    systems, sub-systems, and components; however, with the exception of Navy
    headquarters, their efforts were inconsistent, processes were inadequate and
    uncoordinated, and results were undeterminable. The FY 2003-07 Defense
    Planning Guidance requires each Military Department to submit a plan that
    identifies its implementation schedule for applying PBL to all new weapon
    systems and all ACAT I and II fielded systems by May 2002.

    Department of the Army. Overall, the Army was attempting to implement PBL
    strategies for weapon systems according to the implementation plan. However,
    inconsistent and uncoordinated methodologies were used to determine program
    candidates and status. Although the Army had developed a method to collect
    data, its system was inadequate for tracking and reporting PBL implementation to
    ADUSD(LP&P). The Assistant Secretary of the Army for Acquisition, Logistics,
    and Technology signed the Army’s PBL implementation letter in April 2002. The
    letter required acquisition managers of all ACAT I and ACAT II programs to
    assess their programs for implementation of PBL and to submit a listing of
    candidates for PBL implementation, a listing of candidates not considered
    appropriate for PBL, and a listing of all ACAT I, II, and III systems or sub-
    systems for which they felt they had already applied PBL strategies. The
    Assistant Secretary stated that implementation of PBL for each Army acquisition
    program should be operationally feasible and able to provide an appropriate
    return on investment or PBL would not be pursued.




                                        3
           The results of that tasking are summarized in the Army’s PBL Implementation
           Plan, which was submitted to the Under Secretary of Defense (Acquisition,
           Technology, and Logistics) (USD[AT&L]) in July 2002. The Army used the
           Office of the Secretary of Defense definition of PBL to determine program
           candidates in an attempt to maintain consistency within the Army. The Army
           identified 77 weapon systems, subsystems, or components in the implementation
           schedule for which they had either implemented PBL or were considering for
           PBL implementation. The 77 systems, subsystems, and components had some
           form of PBL strategy in place, such as contractor logistics support or partnering
           agreements. Some of the programs listed as “PBL implemented” had established
           partnering arrangements or organic support in place before the requirement for
           PBL had been established. For example, the Abrams M1A2 Systems
           Enhancement Package Upgrade Program indicates a PBL strategy implementation
           start date of 1994. Other Army programs show start dates of 2001 and earlier,
           before the PBL requirement was established. While those programs are being
           counted as PBL programs, it is unclear if performance goals, incentives for
           attaining those goals, and a decision based on a business case analysis (BCA)4
           were part of the programs. Further, the Army stated that some of those programs
           began as Army Reduction of Total Ownership Cost initiatives and were based on
           an economic analysis or best value analysis. The Army determined that it was not
           cost effective to conduct a BCA on those programs.

           The Army input the initial 77 systems, subsystems, or components into a
           computer spreadsheet for tracking and reporting on the program implementation
           status. The Army was receiving program status in quarterly reports from the
           program executive offices. However, most of the 34 data fields in the spreadsheet
           were not populated and additional information was needed from the acquisition
           managers to make the tracking mechanism meaningful. The only consistently
           populated data fields were the name of the system and the point of contact. The
           field for whether a BCA had been planned or completed was mostly blank, as
           were the rest of the 32 fields. The PBL implementation status is required by the
           Army to be updated each quarter; however, the spreadsheet had not been updated
           since July 2003. As of February 2004, the Army identified a total of 67 PBL
           programs: 29 actual PBL programs and 38 potential PBL programs with various
           combinations of PBL strategies applied or planned. Ten programs had been
           removed from the original 77 programs identified as potential PBL candidates.
           However, the actual number of Army programs for which PBL has been
           implemented cannot be determined because of the lack of meaningful information
           being tracked and reported. As of July 2004, the Army stated it was in the
           process of developing an automated tracking and reporting system to enhance its
           ability to track program status.




4
    A BCA is defined as a tool used to manage business process improvement activities from inception
    through implementation that identifies functional alternatives and presents economical and technical
    arguments for carrying out alternatives over the life cycle to achieve stated business objectives or
    imperatives. Completing a BCA is an integral part of the PBL process.



                                                       4
           Department of the Navy. The Navy was aggressively implementing PBL
           strategies according to its FY 2002 implementation plan. The Office of the
           Assistant Secretary of the Navy (Research, Development, and Acquisition) issued
           the Navy PBL Implementation Plan on April 26, 2002. The Navy had been
           implementing PBL as the preferred product support strategy. For the Navy, PBL
           is implemented when it improves warfighter support and makes good business
           sense. Each major acquisition activity provides PBL assessments for its
           acquisition programs in accordance with the FY 2003-07 Defense Planning
           Guidance.

           The Navy implementation schedule identified 77 weapon systems, subsystems,
           and components for which it was either implementing some form of PBL or was
           planning to implement PBL in the future. The Navy implementation plan
           summarized data from each of the Navy components: Naval Air Systems
           Command (NAVAIR), which identified 40; Naval Sea Systems Command
           (NAVSEA), which identified 24; Space and Naval Warfare Command
           (SPAWAR), which identified 9; and the Marine Corps Systems Command, which
           identified 45. The Navy also designated the level for which an individual
           program had implemented PBL and further identified the status by sub-system
           and single components.

           The Navy provided a status report in March 2004 and identified 187 PBL
           contracts that had either been awarded or were in-process. Of the 187 contracts,
           NAVAIR had awarded 59 contracts for systems, subsystems, and components and
           had 25 PBL contracts in-process. NAVSEA had implemented 22 contracts and
           had 42 contracts in-process. SPAWAR had awarded 15 PBL agreements and had
           20 planned. The Marine Corps data remained static at four in-process programs.
           As of July 2004, the Navy stated that 74 percent of the Navy’s ACAT I and II
           programs were using PBL as product support strategy. Further, the Navy has
           issued more than 140 PBL contracts and agreements.

           As with the Army, many of the Navy programs listed as “PBL implemented”
           (40) had established partnering arrangements or organic support before the
           requirement for PBL was issued. We did not determine if performance goals,
           incentives for attaining those goals, and a decision based on a BCA were part of
           those programs.

           NAVAIR, NAVSEA, SPAWAR, and the Marine Corps PBL implementation
           information are all tracked separately and differently. The tracking mechanisms
           could not be easily rolled into one spreadsheet because of different formats and
           data fields. The Navy PBL implementation status is tracked by the Office of the
           Assistant Secretary of the Navy (Research, Development, and Acquisition)
           through data calls sent to all ACAT I and II program offices for program and PBL
           implementation status. The data call responses are input into a database that is
           used to track PBL implementation status. Status information is forwarded to
           ADUSD(LP&P) when requested.



5
    The Marine Corps has limited ACAT I and II systems.



                                                    5
           Department of the Air Force. The Air Force did not track or request PBL
           implementation status information and was not able to identify how many
           programs existed for which PBL strategies had been implemented. The Air Force
           also did not identify programs or schedules in the implementation plan, which
           was submitted by the Air Force Office of Installations and Logistics on
           October 7, 2002. Instead, the plan refers the reader to the Air Force product
           support Internet Web site for review of individual Product Support Management
           Plans6. Additionally, the implementation plan states that Air Force
           Instruction 63-107, “Integrated Product Support Planning Assessment,”
           May 29, 2001, requires compliance with DoD 5000.2-R7 for the implementation
           of PBL and the development of a Product Support Management Plan. However,
           Air Force Instruction 63-107, as written, does not incorporate PBL.

           Further discussions with Air Force logistics and acquisition personnel identified
           three programs for which PBL had been implemented. However, it was unknown
           whether those three programs contained the necessary components of the PBL
           requirements. The Air Force may have established additional partnering
           arrangements or other PBL strategies for programs, but because there was no one
           responsible for tracking the status of the programs, the correct number of
           programs for which PBL had been implemented is undeterminable. The overall
           PBL implementation status was not tracked by the Air Force and the correct
           information was not being reported to the ADUSD(LP&P).

           Total PBL strategies in-process and potential PBL candidates. As of
           March 2004, the Military Departments provided information showing a total of
           257 systems, sub-systems, or components for which PBL had been implemented
           or planned. However, due to inconsistent, incomplete, and uncoordinated
           information provided to ADUSD(LP&P), the correct number is undeterminable.
           The reporting of 257 systems, subsystems, or components may be highly
           overstated by the Military Departments. That number includes numerous systems
           that had been initiated before the PBL requirement and, therefore, may not
           contain PBL performance goal strategies. For some of those systems, an
           economic analysis had been done instead of preparing a BCA. Figure 2 shows the
           breakdown of the 257 systems reported by the Military Departments.




6
    The Product Support Management Plan is an Air Force planning document that links acquisition and
    logistics processes.
7
    DoD 5000.2-R was cancelled with the issuance of DoD Instruction 5000.2, “Operation of the Defense
    Acquisition System,” May 12, 2003.



                                                     6
                      Figure 2. Status of PBL Implementation as reported to ADUSD(LP&P)


                              PBL Implementation Status as of March 2004

                    200                                        187
                    180
                    160
                                                                         Current PBL
  Reported Status




                    140
                                                                         Planned
                    120                         100
                                                                         Total
                    100                               87
                     80                  67
                     60
                                    38
                     40      29
                     20                                              3     0     3
                      0
                                  Army            Navy               Air Force




Policies, Procedures, and Responsibilities
                    ADUSD(LP&P) had not issued adequate PBL implementation guidance or
                    established sufficient oversight of the PBL process. In addition, the Military
                    Departments had not formalized effective PBL guidelines or established training
                    requirements for executing PBL initiatives. Although the Army and the Navy had
                    developed their own methods for collecting data, those methods were not
                    consistent within the Military Departments and were not always adequate. The
                    Military Departments need a standardized system for tracking and reporting PBL
                    implementation status to ADUSD(LP&P). ADUSD(LP&P) has put much effort
                    into the implementation of PBL by issuing guidance and policy memorandums,
                    by giving informational briefings, and by developing a tracking database.
                    However, additional guidance and oversight is needed to ensure that consistent
                    policies and practices are followed among the Military Departments and to ensure
                    the effectiveness of PBL implementation.

                    DoD Guidance and Oversight. The USD(AT&L) has provided several
                    memorandums on PBL. “Performance Based Logistics,” February 13, 2002,
                    tasked the Military Departments to submit PBL implementation schedules no later
                    than May 1, 2002, for all ACAT 1 & II fielded systems and all new programs.
                    “Performance Based Service Acquisitions,” August 19, 2003, tasks the
                    Secretaries of the Military Departments to work towards achieving 25 percent,
                    35 percent, and 50 percent of contract actions and dollars using performance-
                    based specifications for FYs 2003, 2004, and 2005, respectively. “Designing and
                    Assessing Supportability in DoD Weapon Systems: A Guide To Increased
                    Reliability and Reduced Logistics Footprint,” October 24, 2003, provides a
                    template for program managers to integrate sustainment objectives into
                    performance objectives for increased reliability and reduced logistics footprint


                                                           7
and to provide effective product support through PBL strategies. That
memorandum also tasks program managers to meet Quadrennial Defense Review
objectives and DoD policy requirements throughout the weapon system life-cycle
when defining and assessing program activities. According to the memorandum,
PBL is to be the preferred support strategy within DoD, whenever practical, and
program managers are to work directly with users to develop and implement PBL
agreements.

The Deputy Secretary of Defense issued “Implementation of the Defense
Business Practice Implementation Board (DBB) Recommendation to the Senior
Executive Council (SEC) on Continued Progress on Performance Based
Logistics,” February 4, 2004. The Defense Business Practice Implementation
Board Supply Chain Support Task Group recommended a more aggressive
approach to implementing PBL. The Deputy Secretary stated that a delay in
implementing PBL complicates funding, limits industry flexibility, and increases
DoD inventory. The Deputy Secretary further stated that DoD must streamline
contracting and financing to buy availability and readiness measured by
performance criteria. He directed the USD(AT&L) to issue guidance on
purchasing and using performance criteria. He directed the Military Departments
to provide a plan in 120 days, to aggressively implement PBL, and to include the
transfer of funding on current and planned systems for FYs 2006-2009.

The USD(AT&L) also issued “Performance Based Logistics (PBL) Business Case
Analysis (BCA),” January 23, 2004. That memorandum provided guiding
principles for preparing a PBL BCA. The guiding principles were structured to
support “best value” assessments of product support strategies, consistent with
existing PBL guidance. The Military Departments were directed to revise their
PBL BCA guidance to incorporate the guidelines. In addition, the
ADUSD(LP&P) is in the process of drafting a revised comprehensive DoD PBL
BCA Handbook. The completion of a BCA is a valuable tool in assessing a
logistics support strategy. The BCA validates decisions, including the selection
of PBL support strategies. A BCA is required for all new or ongoing programs or
activities forwarded to headquarters for approval when there is a choice or trade-
off between two or more alternatives. The Military Departments are awaiting
finalized guidance from ADUSD(LP&P) on BCA procedures before formalizing
their respective policies. The ADUSD(LP&P) should finalize additional policies
for PBL implementation and BCA development as soon as possible so that the
Military Departments have a cornerstone for developing their own guidance. In
addition, ADUSD(LP&P) had not issued specific definitions of PBL terms.
Therefore, the Military Departments were using different definitions for PBL
terminology. ADUSD(LP&P) needs to issue a standardized set of definitions in
order for the Military Departments to efficiently and consistently make the best
choices for PBL implementation. ADUSD(LP&P) should include the
standardized definitions in the new handbook.

Military Departments PBL Guidelines. The Military Departments had not
formalized adequate PBL guidelines for executing PBL initiatives. The Army has
developed draft guidance, “U.S. Army Implementation Guide: Performance-
Based Logistics (PBL).” That guidance provides overall guidance on PBL
implementation. The Army is also developing guidance on BCA development;



                                    8
           however, as of July 2004, the draft guidance had not been finalized or officially
           distributed. Army personnel should complete and finalize standardized guidance
           on PBL that incorporates any new policies and procedures issued by
           ADUSD(LP&P).

           With the exception of SPAWAR and the Marine Corps, whose guidance is still
           being developed, Navy Components had issued some formal guidance on PBL.
           The Office of the Assistant Secretary of the Navy (Research, Development, and
           Acquisition) had issued a comprehensive policy on PBL implementation. Navy
           headquarters established, “Department of the Navy Performance-Based Logistic
           Guidance Document,” January 27, 2003. That guidance provides a detailed
           overview of the PBL strategy, characteristics, and responsibilities. It reinforces
           that PBL is the preferred method of providing weapon system logistics product
           support. The guidance also provides detailed guidelines for developing a PBL
           BCA. The guidance was written specifically for the Navy and the Marine Corps
           as it applies to logistics support by the direction of USD(AT&L). In addition, the
           Navy has requested that the Center for Naval Analyses provide PBL BCA
           guidelines. The requested overarching guidelines would apply accepted
           principles of economic and cost analysis consistent with all the Office of the
           Secretary of Defense and Navy guidance. The project began in January 2004 and
           is scheduled to be complete in October 2004.

           Secretary of the Navy Instruction 4105.1A, “Independent Logistics Assessment
           (ILA) and Certification Requirements,” March 5, 2004, requires assessments of
           logistics support programs prior to initial operational capability and full
           operational capability. The results of Independent Logistics Assessments are the
           basis for logistics certification and serve as entrance criteria for milestones B, C8,
           and the full rate production decision. Independent Logistics Assessments are to
           be conducted using guidance in Navy Staff Office Publication-3692,
           “Independent Logistics Assessment Handbook,” December 2003. Navy Staff
           Office Publication-3692 provides standard assessment criteria for use during an
           Independent Logistics Assessment. The handbook provides logistics evaluation
           criteria to be applied to all Navy programs. The advent of PBL requires a new
           focus on performance requirements, and the handbook provides guidance on
           evaluation criteria for PBL and PBL BCAs.

           NAVSEA issued a memorandum providing background and policy for NAVSEA
           PBL implementation. The memorandum directs NAVSEA staff to comply with
           PBL implementation policy. The policies in the memorandum reiterate those
           found in the DoD Guide, “Product Support for the 21st Century: A Program
           Managers Guide To Buying Performance,” November 2001. NAVAIR
           Instruction 4081.2, “Policy Guidance for Alternative Logistics Solutions
           Candidates,” September 18, 2002, provides guidance on PBL execution.


8
    A milestone is the point at which a recommendation is made and approval is sought regarding starting or
    continuing an acquisition program, such as proceeding to the next phase. Current milestones are:
    Milestone A, which approves entry into the Technology Development phase; Milestone B, which
    approves entry into the System Development and Demonstration phase; and Milestone C, which approves
    entry into the Production and Deployment phase.



                                                      9
           Although some PBL guidance had been issued by Navy Components, additional
           guidance was required, and that guidance was still in draft form as of July 2004.

               •   NAVAIR Instruction 4081.2A, “Policy Guidance For Performance-Based
                   Logistics Candidates,” is being developed to set forth objectives, establish
                   policies, and describe processes and responsibilities for the evaluation and
                   implementation of PBL candidates for all systems under the NAVAIR
                   program manager’s direction and control. The draft instruction includes
                   three enclosures: “Performance-Based Logistics Process,” “Performance-
                   Based Logistics Block Description,” and “Performance-Based Logistics
                   Candidate Analysis Guidebook.”

               •   NAVSEA is developing Instruction 4000.7, “NAVSEA Requirements For
                   Implementation of Performance-Based Logistics.” That policy is being
                   developed to establish requirements, roles, and responsibilities regarding
                   PBL execution.

               •   NAVSEA is also preparing to issue NAVSEA Instruction 4000.8, which
                   will provide BCA guidance, along with a NAVSEA “Program Manager’s
                   Guide to conducting BCAs.” In addition, a draft of NAVSEA/NAVSUP
                   “Program Manager’s Guide to Implementing PBL” is currently under
                   development.

               •   SPAWAR is preparing SPAWAR Instruction 4105.19, “Guidance for
                   Performance Based Logistics in C4ISR9 Programs,” as an implementation
                   directive outlining the roles and responsibilities for PBL in C4ISR
                   programs.

               •   The Marine Corps is developing a Marine Corps Order, which depicts
                   requirements for the implementation of PBL and Performance Based
                   Agreements.

               •   In support of the Marine Corps Order, a Marine Corps PBL guidance
                   document is being developed to assist personnel responsible for providing
                   program and component management of weapon systems.

           The Assistant Secretary of the Navy (Research, Development, and Acquisition),
           in conjunction with NAVAIR, NAVSEA, SPAWAR, and the Marine Corps
           should complete and finalize standardized guidance on PBL that incorporates any
           new policies and procedures issued by ADUSD(LP&P).

           The Air Force had not formalized effective PBL guidelines for executing PBL
           initiatives. Air Force Instruction 63-107, “Integrated Support Planning and
           Assessment,” May 29, 2001, as written, does not incorporate PBL. A
           memorandum, “Product Support Partnerships and Depot Maintenance
           Integration,” April 15, 2002, provides interim guidance on product support
           partnering. That policy states that sustainment support should be pursued through
           public and private partnering using PBL contracts; however, it does not give

9
    C4ISR stands for Command, Control, Communications, Computers, Intelligence, Surveillance, and
    Reconnaissance.



                                                   10
further instruction to the Air Force on incorporating PBL. Air Force personnel
are updating Air Force Instruction 63-107 to include additional guidance on PBL
and to incorporate the interim guidance from the USD(AT&L) memorandum of
January 23, 2004. The revised instruction will also provide additional guidance
on Product Support Management Plan and BCA preparation. The Product
Support Management Plan is a planning document that links all logistics
processes and is updated biennially or at major program events. Air Force
personnel estimate that the revised Air Force Instruction 63-107 will be
completed in September 2004. Air Force personnel should complete and finalize
standardized guidance on PBL that incorporates any new policies and procedures
issued by ADUSD(LP&P).

Standardized Training. The Military Departments did not establish training
requirements for executing PBL initiatives. ADUSD(LP&P) and the Military
Departments need to ensure that PBL participants understand the roles,
responsibilities, and implementation procedures. However, DoD guidance does
not adequately define specific implementation training requirements for the user
community. The Military Departments should develop a separate PBL training
program for activities that are implementing PBL. ADUSD(LP&P) should
identify training opportunities and encourage Military Department participation in
Defense Acquisition University (DAU) training.

        Army Training. The Army did not establish training requirements for
executing PBL initiatives. Army management acknowledged that there is a lack
of training provided for PBL. The Army plans to use training that is available
through DAU Logistics 235: “Performance-Based Logistics,” and mobile
training units provided by DAU. As of July 2004, the Army stated that DAU had
conducted mobile training at five Army locations and had one more scheduled
and one proposed. A self-paced online PBL overview module is also available
through DAU. The Army should develop training requirements for executing
PBL initiatives to ensure that its staff is adequately trained.

        Navy Training. The Navy did not establish training requirements for
executing PBL initiatives. Navy headquarters did not establish PBL training
requirements for program office staff and associated support, even though it
acknowledged the lack of PBL training as a barrier to successful PBL
implementation in its May 1, 2002, implementation plan. Of the four Navy
components, NAVAIR has developed a training brief on PBL and has been
aggressive in developing training for NAVAIR staff. NAVSEA and SPAWAR
plan to rely on training from DAU PBL courses. In addition, SPAWAR is also
relying on training provided through the mobile training unit. The Marine Corps
staff had not received any formal DAU training and had not developed any of its
own training. The Assistant Secretary of the Navy (Research, Development, and
Acquisition) and each Component should develop training requirements for
executing PBL.

        Air Force Training. The Air Force did not establish training
requirements for executing PBL initiatives. The Air Force did not establish PBL
training requirements for program office staff and associated support, even though
it acknowledged the lack of PBL training as a barrier to successful PBL
implementation in its implementation plan. The Air Force also identified a lack


                                    11
    of training on developing performance measures as a barrier to successful PBL
    implementation. According to Air Force representatives, a Web-based PBL
    training tool is currently under development. Additionally, once Air Force
    Instruction 63-107 is finalized in September 2004, it will begin training its staff
    on the new guidance by establishing mobile training units. Upon completion of
    Air Force Instruction 63-107, the Air Force should develop training requirements
    for executing PBL initiatives to ensure that its staff is adequately trained.

    Standardized Data Collection. ADUSD(LP&P) did not established sufficient
    oversight on the implementation and tracking of PBL programs. The Military
    Departments lacked a standardized data collection system for tracking and
    reporting PBL implementation status. The Air Force did not establish a method
    for tracking status. Although the Army and the Navy had developed their own
    methods for tracking the status, those methods were not consistent within the
    Military Departments and were not always adequate. The data collected was
    inconsistent and, therefore, difficult to analyze. ADUSD(LP&P) is responsible
    for overseeing the implementation status of PBL within the Military Departments
    and needs consistent data in order to establish effective oversight and to
    determine if logistics goals are being achieved.

    USD(AT&L) requested that ADUSD(LP&P) be responsible for overseeing the
    implementation status of PBL for the Military Departments. To accomplish that
    task, ADUSD(LP&P) requested periodic updates on the status of PBL
    implementation from the Military Departments. ADUSD(LP&P) personnel have
    been provided that data from the Army and the Navy upon request. However, as
    of May 2004, the Air Force was still unable to determine the implementation
    status of weapon systems. Without the data from the Air Force, ADUSD(LP&P)
    cannot effectively oversee the implementation status of PBL for the Military
    Departments. ADUSD(LP&P) should require that the Air Force establish a PBL
    point of contact who will be able to provide the status information as requested by
    ADUSD(LP&P).

    ADUSD(LP&P) is developing a database that is Web-based and will enable
    access for each of the Military Departments. The database is very detailed and
    contains many fields for status information. When populated with data from each
    of the Military Departments, ADUSD(LP&P) will have an efficient system with
    quarterly updated PBL status reports. However, ADUSD(LP&P) needs to require
    the Military Departments to collect, populate, and report data on all PBL systems
    in the same format. ADUSD(LP&P) should require that the Military Departments
    report data, on a periodic basis, using this standardized collection system.


Conclusion
    Overall, with the exception of the Navy, the Military Departments are not
    aggressively implementing PBL strategies. While the Army and the Navy are
    counting many programs under a PBL category, many of those programs do not
    contain all the elements of a PBL strategy. PBL implementation was not
    achieving the goals of improving readiness for major weapon systems or realizing
    a reduction in logistics support costs because standardized guidance did not exist


                                        12
    for implementing PBL, sufficient oversight had not been established, and training
    requirements had not been determined. In addition, an efficient status tracking
    system had not been developed by the Military Departments, with the exception
    of Navy headquarters. Therefore, DoD cannot ensure effective implementation of
    PBL strategies. The lack of adequate guidance for implementing PBL caused
    each of the Military Departments to develop systems and guidance in order to
    begin the process of PBL implementation, but the systems and guidance were not
    standardized, consistent, or compatible. Appendix C contains additional barriers
    to PBL implementation.


Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Assistant Deputy Under Secretary of Defense
    (Logistics Plans and Programs), in coordination with the Military
    Departments:

          a. Finalize written guidance that defines performance-based logistics
    terminology and the Military Departments’ responsibilities for implementing
    performance-based logistics for weapon systems, sub-systems, and
    components.

          b. Establish written guidance that defines the requirements, process,
    and procedures for developing a business case analysis to determine potential
    performance-based logistics candidates.

           c. Finalize a standardized data collection format that contains all of
    the data fields determined necessary to accurately track the status of
    performance-based logistics efforts.

           d. Establish requirements for quarterly reports or updates to all
    required fields of the standardized data collection format.

    Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
    Comments. The Acting Deputy Under Secretary of Defense (Logistics and
    Materiel Readiness) concurred with Recommendation 1.a. The Acting Deputy
    described additional guidance that is being written to provide detailed guidance
    on PBL implementation. The Acting Deputy is updating the current Product
    Support Guide, and is writing a new chapter on Life Cycle Logistics in the
    Defense Acquisition Guidebook. The publications are scheduled for release in
    early fall 2004.

    The Acting Deputy concurred with Recommendation 1.b. The Acting Deputy
    stated that the product support guide will include guidance on performing a PBL
    BCA. The guide is being developed in consonance with the Military Departments
    and industry members of the Total Life Cycle Systems Management Steering
    Group. In addition, the Acting Deputy’s office is working with the DAU to
    improve PBL training and guidance for developing a PBL BCA.



                                        13
The Acting Deputy concurred with Recommendation 1.c. The Acting Deputy’s
office is currently collecting Military Department PBL implementation
information on an ad-hoc basis. Current plans are to standardize the data fields
for Military Department reporting. The Office of the Deputy Under Secretary of
Defense (Logistics and Materiel Readiness) will work with the Military
Departments through the Total Life Cycle Management Steering Group to
determine the standardized data fields and establish reporting formats.

The Acting Deputy concurred with Recommendation 1.d. The ADUSD(LP&P)
will establish the requirement through the Total Life Cycle Management Steering
Group.

Army Comments. The Deputy Assistant Secretary of the Army (Integrated
Logistics Support), responding for the Assistant Secretary of the Army
(Acquisition, Logistics, and Technology), concurred with Recommendation 1.a.,
1.b., 1.c., and 1.d.

Navy Comments. The Deputy Assistant Secretary of the Navy (Logistics),
responding for the Assistant Secretary of the Navy (Research, Development, and
Acquisition), concurred with the Recommendation 1.a., 1.b., 1.c., and 1.d.

Air Force Comments. The Department of the Air Force, Assistant Deputy Chief
of Staff (Installations and Logistics) concurred with Recommendation 1.a., 1.b.,
and 1.c., but only partially concurred with Recommendation 1.d. The Assistant
Deputy concurred with the issuance of guidance and standardized reporting
formats for PBL activities, but did not concur with quarterly reporting
requirements. The Assistant Deputy stated that criteria and action for quarterly
reporting had not been established and that occasional or “as required” reporting
of PBL activities is adequate. In addition, the Assistant Deputy stated that
quarterly reporting would tax already scarce resources for undetermined benefits.

Audit Response. The Air Force comments on Recommendation 1.d. are partially
responsive. We disagree with the Assistant Deputy that “as required” reporting of
PBL activities is adequate. As stated in the report, the ADUSD(LP&P) is
responsible for overseeing the implementation status of PBL for the Military
Departments. The ADUSD(LP&P) will need consistent and timely updates to
maintain current oversight of the implementation. The criteria and action for
quarterly reporting will be established by the ADUSD(LP&P) through the Total
Life Cycle Management Steering Group. We also disagree that the quarterly
reporting would tax resources, as only programs with PBL implementation
changes would require an update on the quarterly report.

2. We recommend that the Assistant Secretary of the Army (Acquisition,
Logistics, and Technology); the Assistant Secretary of the Navy (Research,
Development, and Acquisition); the Air Force Deputy Chief of Staff
(Installations and Logistics); and the Marine Corps Deputy Commandant,
Installations and Logistics:

       a. Issue policies and procedures for implementation of performance-
based logistics, to include preparation of a business case analysis that
incorporate the policies and procedures that the Assistant Deputy Under


                                   14
Secretary of Defense (Logistics Plans and Programs) will develop based on
Recommendations 1.a., 1.b., and 1.c.

       b. Determine and establish performance-based logistics training
requirements for executing PBL initiatives.

Army Comments. The Deputy Assistant Secretary of the Army (Integrated
Logistics Support), responding for the Assistant Secretary of the Army
(Acquisition, Logistics, and Technology), partially concurred with
Recommendation 2.a. The Deputy referred to the Army’s PBL implementation
guidance dated April 1, 2002, and July 8, 2002, stating that PBL can be applied at
the system, subsystem, or component level. Many of the Army’s ongoing and
planned PBL programs are at the subsystem and component level. The Deputy
stated that PBL policy has been added to several Army guidance documents. In
addition, the Army has formed an Army PBL integrated product/process team that
is developing additional policies and procedures to include BCAs, performance-
based agreements, a product support integrator, and contracting.

The Deputy Assistant Secretary of the Army (Integrated Logistics Support)
partially concurred with Recommendation 2.b. The Deputy stated that the Army
takes maximum advantage of PBL training provided by the DAU. The Army
PBL integrated product team will review additional training requirements and
course development and determine if Army-unique training needs to be
developed.

Audit Response. Although the Army partially concurred with Recommendation
2.a. and 2.b., Army comments are responsive.

Navy Comments. The Deputy Assistant Secretary of the Navy (Logistics),
responding for the Assistant Secretary of the Navy (Research, Development, and
Acquisition), concurred with Recommendation 2.a. but did not concur with
Recommendation 2.b. The Deputy Assistant stated that the Navy does not concur
that each Service and component within the Services should establish independent
PBL training programs. The Deputy Assistant stated that relying on standardized
DAU training would ensure that PBL is instituted consistently throughout DoD.

Audit Response. The Navy comments on Recommendation 2.b. are partially
responsive. The recommendation requires the determination and establishment of
PBL training requirements for executing PBL initiatives, not the establishment of
training programs. We request that the Navy reconsider its position on
Recommendation 2.b. to determine and establish training requirements and
provide additional comments in response to the final report. The comments
should identify specific actions that will meet the intent of the recommendation.

Air Force Comments. The Department of the Air Force, Assistant Deputy Chief
of Staff (Installations and Logistics) concurred with Recommendation 2.a. and
2.b.




                                    15
Appendix A. Scope and Methodology
   For each Military Department, we evaluated their progress in implementing PBL
   in accordance with their published implementation schedules. We assessed the
   adequacy and availability of PBL guidance. We also assessed the adequacy of
   PBL training for personnel.

   We interviewed personnel responsible for PBL at the ADUSD (LP&P); the
   Assistant Secretary of the Army (Acquisition, Logistics and Technology); the
   Office of the Assistant Secretary of the Navy (Research, Development and
   Acquisition); the Air Force Assistant Deputy Chief of Staff (Installations and
   Logistics); NAVAIR; NAVSEA; SPAWAR; and the Marine Corps Systems
   Command.

   We reviewed section 2464, title 10, United States Code (10 U.S.C. 2464),
   “Necessity for Core Logistics Capabilities,” January 22, 2002; 10 U.S.C. 2466,
   “Percentage Limitation,” January 22, 2002; 10 U.S.C. 2469, “Requirement for
   Competition,” January 22, 2002; and 10 U.S.C. 2474, “Centers of Industrial and
   Technical Excellence: Designation; Public-Private Partnerships,”
   January 22, 2002. In addition, we reviewed DoD 7000.14-R, “DoD Financial
   Management Regulation,” June 2002; DoD Directive 5000.1, “The Defense
   Acquisition System,” May 12, 2003; DoD Instruction 5000.2, “Operation of the
   Defense Acquisition System,” May 12, 2003; and “Implementation of the Defense
   Business Practice Implementation Board Recommendation to the Senior
   Executive Council on Continued Progress on Performance Based Logistics,”
   February 4, 2004. We also reviewed “Quadrennial Defense Review Report,”
   September 30, 2001; “Product Support: A Program Manager’s Guide to Buying
   Performance,” November 2001; “Business Case Model for the DoD Logistic
   Community: A Guide to Business Case Development,” September 30, 1999; and
   both draft and final versions of PBL guidance developed by USD(AT&L) and
   each of the Military Departments.

   We performed this audit from December 2003 through May 2004 in accordance
   with generally accepted government auditing standards.

   We limited our scope and did not evaluate management controls. We did not
   evaluate the management controls program because PBL is a strategy for weapon
   system product support that is still in the early phases within DoD. We limited
   our scope to addressing the progress of the Military Departments in implementing
   PBL in accordance with their published schedules and assessing the adequacy and
   availability of guidance and training.

   Use of Computer-Processed Data. We relied on limited computer-processed
   data to perform this audit. The use of computer-processed data was limited to
   data provided by the Military Departments on the status of PBL programs and
   implementation of PBL.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office (GAO) has identified high-risks areas in DoD. This report
   provides coverage of the DoD Weapon System Acquisition high-risk area.


                                       16
Appendix B. Prior Coverage
       During the last 5 years, the GAO, the Inspector General of the Department of
       Defense (IG DoD), and the Naval Audit Service have issued nine reports
       discussing PBL. Unrestricted GAO reports can be accessed over the Internet at
       http://www.gao.gov. Unrestricted IG DoD reports can be accessed at
       http://www.dodig.osd.mil/audit/reports.


GAO
       GAO Report No. GAO-04-715, “Opportunities to Enhance the Implementation of
       Performance-Based Logistics,” August 16, 2004

       GAO Report No. GAO-02-306, “Opportunities to Improve the Army’s and the
       Navy’s Decision-making Process for Weapons Systems Support,”
       February 28, 2002


IG DoD
       IG DoD Report No. D-2004-021, “Effectiveness of Maintenance Work Performed
       Under Contract FA4452-01-C-0001 at Andrews Air Force Base,”
       November 19, 2003

       IG DoD Report No. D-2003-120, “F/A-18E/F Integrated Readiness Support
       Teaming Program,” August 8, 2003

       IG DoD Report No. D-2002-112, “Industrial Prime Vendor at the Air Force Air
       Logistics Centers,” June 20, 2002


Navy
       Naval Audit Service Audit Report No. N2003-0050, “Contractor Logistics
       Support Oversight,” May 15, 2003

       Naval Audit Service Audit Report No. N2003-0024, “Contractor Logistics
       Support at the Naval Air Systems Command,” January 29, 2003

       Naval Audit Service Audit Report No. N2002-0069, “Contractor Logistics
       Support at the Space and Naval Warfare Systems Command,” August 8, 2002




                                          17
Naval Audit Service Audit Report No. N2002-0049, “Contractor Logistics
Support at the Naval Sea Systems Command,” May 17, 2002




                                 18
Appendix C. Additional Barriers to Performance-
            Based Logistics Implementation
   Legislative and Regulatory Constraints on PBL Implementation. Several
   barriers to the effective implementation of PBL exist, including section 2464,
   title 10, United States Code (10 U.S.C. 2464); core capability requirements; the
   50-50 requirements; the lack of funding flexibility; and multi-year contracting
   authority.

   Core Capability. The core logistics capability required by 10 U.S.C. 2464
   deems that DoD shall:
              maintain a core logistics capability that is Government-owned and
              Government-operated (including Government personnel and
              Government-owned and Government-operated equipment and
              facilities) to ensure a ready and controlled source of technical
              competence and resources necessary to ensure effective and timely
              response to a mobilization, national defense contingency situations, and
              other emergency requirements.

   The statute requiring the core capability is problematic to the implementation of
   PBL. DoD does not have the resources to develop organic depot-level repair
   capabilities for legacy systems that are currently being repaired commercially.
   The core designation hinders the Military Departments’ flexibility for establishing
   PBL strategies.

   50-50 Workload Limitations. The limitation on the performance of depot-level
   maintenance of material as required by 10 U.S.C. 2466 deems that:
              not more than 50 percent of the funds made available in a fiscal year to
              a military department or a Defense Agency for depot-level maintenance
              and repair workload may be used to contract for the performance by
              non-Federal Government personnel of such workload for the military
              department or the Defense Agency. Any such funds that are not used
              for such a contract shall be used for the performance of depot-level
              maintenance and repair workload by employees of the Department of
              Defense.

   In addition, as amended by the “National Defense Authorization Act for Fiscal
   Year 2000,” the statute requires the DoD to submit two reports to Congress
   annually on public and private sector depot-level maintenance and repair
   workloads. The first is to report on the percentage of funds associated with such
   workloads during the preceding two fiscal years. The second is to report
   projected expenditures for the current and four succeeding fiscal years. The
   following table shows the depot-level maintenance workload allocations for each
   fiscal year and future projections.




                                           19
                    Depot-Level Maintenance Work Allocated to the Private Sector*

                                                              Fiscal Year

                              2000         2001         2002         2003         2004         2005         2006        2007

              Army           44.9%         47.8%        46.5%        41.5%        43.7%        40.1%        42.5%       40.9%

             Navy/
             Marine          43.3%         45.3%        42.6%        45.4%        49.1%        48.3%        46.5%       42.5%
             Corps

            Air Force        51.5%         52.3%        45.8%        48.0%        45.0%        43.6%        43.2%       44.5%


           * Obtained from DoD 50-50 Reports dated February 4, 2002; April 12, 2002; February 11, 2003; April 7, 2003; and April
             6, 2004.




          Section 2466, title 10, United States Code also requires GAO to submit opinions
          on the reports to Congress on whether DoD complied with the 50-50 requirement
          in the prior-years report and whether the projections in the future-years report are
          reasonable. GAO has repeatedly reported that continuing weaknesses in DoD
          data gathering and reporting has prevented GAO from determining whether the
          Military Departments were in compliance with the 50-50 requirements. Data
          submitted to Congress shows that the Military Departments are below the
          50 percent funding limitation on private sector work, with the exception of the Air
          Force, which exceeded the limit in FYs 2000 and 2001.

          GAO also found errors and omissions that, if corrected, will increase the overall
          percentages of funding going to the private sector and move each Department
          closer to the limits.∗ The 50-50 limitations also hinders the Military Departments’
          flexibility in initiating PBL strategies.
          Funding Flexibility and Multiyear Contracting. Another barrier to the
          effective implementation of PBL programs is the lack of funding flexibility and
          the lack of authority to execute multi-year PBL contracts. DoD believes program
          managers should be able to respond to funding fluxuations by using procurement
          and operation and maintenance appropriations to fund PBL contracts and by
          having the authority to reprogram those funds as needed without Congressional
          approval. The Office of the Secretary of Defense is seeking the authority to use
          multi-year contracting (3 to 5 years or more) in order to enable the contractor to
          reduce investment risk, maximize efficiencies, and manage obsolescence of parts
          being issued. DoD has requested that Congress substantially increase the amount



∗
    Derived from GAO-03-1023, “Depot Maintenance: DoD’s 50-50 Reporting Should Be Streamlined,”
    September 2003.



                                                             20
of money that can be reprogrammed among appropriations and for the authority
for program managers to enter into multi-year contracts. However those requests
have not been approved.




                                   21
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Director, Program Analysis and Evaluation
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
     Assistant Deputy Under Secretary of Defense (Logistics Plans and Programs)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Acquisition, Logistics and Technology)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Assistant Secretary of the Navy (Research, Development, and Acquisition)
Naval Inspector General
Auditor General, Department of the Navy
Marine Corps Assistant Commander for Acquisition Logistics
  Marine Corps Deputy Commandant, Installations and Logistics

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Air Force Deputy Chief of Staff (Installations and Logistics)
Auditor General, Department of the Air Force




                                         22
Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                          23
Deputy Under Secretary of Defense (Logistics
and Materiel Readiness) Comments




                      25
26
Department of the Army Comments




                    27
Final Report
 Reference




Revised
Page 3 and 4




Revised



Revised




               28
     Final Report
      Reference




     Page 7



     Revised
     Page 7

     Page 7



     Revised
     Page 11




     Page 12




29
Department of the Navy Comments




                    30
31
Final Report
 Reference




Revised


Revised
Page 9


Revised




Revised
Page 10




               32
33
Department of the Air Force Comments




                     34
35
36
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Readiness and Logistics Support prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Shelton R. Young
Terrance P. Wing
Nancee K. Needham
Tara L. Cole
Daniel L. Messner
Kristin A. Caskey
Beverly J. Charlton
Susann L. Cobb
